January 20, 2009

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT:        Management Advisory – Imprudent Spending Using the SmartPay®
                Purchase Card (Report Number FF-MA-09-002)

This report presents the results for our fiscal year (FY) 2008 review of U.S. Postal
Service imprudent spending using the SmartPay Purchase Card (Project Number
08BO007FF002). The report is self-initiated and addresses financial risks. See
Appendix A for additional information about this review.

Conclusion

Employees have made, and are continuing to make, imprudent and unnecessary
purchases during a time of severe economic uncertainty in the Postal Service. While
such purchases are generally not in direct violation of Postal Service policies, they
conflict with the Postal Service’s objective of driving down costs in all operations and
processes.1 Moreover, the public’s view of such imprudent purchases could have a
detrimental effect on the Postal Service’s public image due to the perception that the
agency is using funds from sales of stamps to purchase expensive items.

Imprudent Purchases Made by Postal Service Employees

Employees have made purchases, primarily gifts and items for meetings, which we
believe are imprudent and unnecessary during a time of severe economic uncertainty in
the Postal Service. In a recent report on the Postal Service’s progress in the areas of
network strength, realignment planning, accountability, and improved communication,
the Government Accountability Office (GAO) stated the Postal Service “must increase
efficiency and decrease costs across all its operations” in order to respond to declining
mail volumes.2 In addition, the Vice President, Controller, has directed employees to
“continue efforts to control expenses” by making “prudent choices and deferring or
eliminating non-critical activity.”3 Some examples of imprudent purchases we identified
follow.

1
  Postal Bulletin 22238, FY 2008 Closing Guidance: Message from the Controller, July 31, 2008.
2
  GAO Report: U.S. Postal Service: USPS Has Taken Steps to Strengthen Network Realignment Planning and
Accountability and Improve Communication, July 24, 2008.
3
  FY 2008 Closing Guidance: Message from the Controller.
Imprudent Spending Using the SmartPay® Purchase Card                                     FF-MA-09-002



Employees put these purchases into the eAwards System (eAwards):

1. Electronic and household items such as Global Positioning Systems (GPS),
   navigational systems, video game consoles, camcorders, digital cameras, personal
   computers, printers, an espresso machine, and a TiVo® system given as employee
   awards/recognition, purchased in late fall 2007, and costing a total of $93,234.

2. Thirteen 23-inch high-definition televisions given as employee awards, purchased in
   fall 2007, and costing $6,435.

3. Three designer watches given as employee awards, purchased in fall 2007, and
   costing $4,370.

Employees did not put these purchases into eAwards:

4. Carnival type games and amusements for an employee appreciation and family day
   event, purchased in fall 2007, and costing $7,995. Cardholders are not required to
   put purchases related to employee appreciation into eAwards.4

5. A 2-day year-end meeting held in November 2007 by one area costing $26,884,
   including the cost of breakfast, lunch, and dinner; meeting rooms; audio-visual
   equipment; and incidentals such as baggage handling and gratuities for 60 people.5
   The purchase included lodging for 14 attendees whose duty station was less than
   50 miles from the meeting place. Cardholders were not required to put these
   purchases into eAwards since this was a business meeting and not an employee
   recognition award event.

6. Tickets for sporting events, purchased in late fall 2007 and winter 2008, costing a
   total of $28,498. These purchases included a professional basketball game that 450
   employees attended and where they received food and hats, and season tickets6 for
   a major league baseball team. Cardholders were not required to put these
   purchases into eAwards because the per ticket cost was less than $50.7

We found the documentation supporting the purchases listed above and others did not
always provide sufficient detail to identify the number of items purchased, the number of
people attending events or recognized for awards, or the specific purpose or reason for
the purchase. Without extensive testing, it is not possible for management or the U.S.
Postal Service Office of Inspector General (OIG) to determine the extent to which some
of these purchases (i.e., events) occur because they are not always tracked separately.
Items of value – such as GPS and navigational systems, electronic appliances, watches
4
  All employee recognition awards, except Certificates of Appreciation, Ben Franklin Awards, non-cash tangible
awards valued at less than $50, and Quality Step Increases, must be processed or reported via eAwards. Employee
appreciation days do not fall into any of these categories.
5
  $17,148 of the $26,884 was for meals.
6
  We were unable to determine attendees by name.
7
  Memorandum of Policy ERM-12-12-06, Recognition and Awards Program, January 12, 2006.




                                                       2
Imprudent Spending Using the SmartPay® Purchase Card                                    FF-MA-09-002



and gift cards – are captured in eAwards.8 Some of the purchases we identified –
tickets to sporting events, business meetings and appreciation days – are associated
with recognition or events; therefore, they are not required to be put into eAwards. As
cited in a recent OIG report, expenses associated with internal and external events
(meals, refreshments, employee recognition gifts, gift cards, et cetera) should be
separately tracked to facilitate transparency and accountability.9

In addition to the types of purchases noted above, we identified spending for food and
meals made using Purchase Cards totaling over $7 million in FY 2008. However, we
did not include specific examples in our report, as the Postal Service recognized the
need to strengthen its policy in this area and recently issued a management instruction
that provides additional guidance.10 The Postal Service travel policy states that anyone
in travel status must deduct all meals provided from their per diem expense.11
Managers told us that meals are provided only under specific circumstances, often to
ensure that people in travel status are available for a meeting for the maximum amount
of productive time. We plan to continue to monitor these purchases throughout
FY 2009 to determine whether the new management advisory is effective.

Although most of the purchases we tested were not in violation of Postal Service
purchasing procedures, the nature of the purchases is in direct conflict with the Postal
Service’s objective of driving down costs in all operations and processes. In addition,
due to the perception that the Postal Service is using funds from stamp sales to
purchase expensive items, this kind of imprudent spending could damage the Postal
Service’s public image (goodwill). Both managers and those with awards approval
authority should consider the costs of the awards and the perception of these awards to
outside individuals. The imprudent purchases we identified represent items of value
that are above and beyond employee salaries and bonuses.

We believe a reduction in purchases is feasible based on our analysis of Purchase Card
data from October 2006 through September 2008. In fact, chart 1 shows that in Quarter
4, FY 2008, purchases decreased to an average of $24 million per month, down from an
average of nearly $32 million per month for the first 9 months of FY 2008. We believe
this is due to a recent emphasis on cost cutting, and further reductions are possible to
realize additional cost savings by emphasizing the need to limit the amount of spending
on non-cash items.




8
  There were 183,208 award transactions and $43,633,292 recorded in eAwards for 183,208 career and non-career
employees during FY 2008, compared with a total of 765,088 career and non-career employees.
9
  Postal Service Management Instruction – Expenses for Internal and External Events (Report Number
FT-MA-09-001, dated January 13, 2009).
10
   Management Instruction FM-640-2008-1, Expenses for Internal and External Events, September 10, 2008.
11
   Handbook F-15, Travel and Relocation, Section A-2.5 February 2004 (updated with Postal Bulletin revisions
through December 2007).




                                                      3
Imprudent Spending Using the SmartPay® Purchase Card                                                               FF-MA-09-002




                                          Chart 1. Purchase Card Spending - Fiscal Years 2007 and 2008
     40,000,000.00


     35,000,000.00


     30,000,000.00


     25,000,000.00

                                                                                                                                FY 2007
     20,000,000.00                                                                                                              FY 2008


     15,000,000.00


     10,000,000.00


      5,000,000.00


                0.00
                     October          December             February           April         June          August
                               November          January              March           May          July             September




Although the total amount spent using SmartPay cards is decreasing, our continuous
auditing of SmartPay purchases is showing that employees are continuing to make
imprudent and unnecessary purchases. For example, we identified a recent purchase
of tickets for 220 employees and their guests to attend a professional basketball game
in April 2009.12 The total cost was $9,920. These purchases have not been put into
eAwards because they have not yet been provided to specific employees.

We provided a discussion draft of this report to management and met with them on
October 29, 2008, to discuss their questions and observations. Subsequently, the
Postmaster General (PMG) issued a memorandum to all officers on reducing costs (see
Appendix B). In his memorandum, dated December 1, 2008, the PMG referenced our
audit, noting that the purchases we identified — although within the authority of the
approving officials — were imprudent and unnecessary during a time of severe
economic uncertainty. Further, he provided officers additional guidance on the
importance of using their approval authority to consider the amount, type, and purpose
of the purchase, as well as its business value and potential public perception of the
purchase. Because of the actions the PMG took, we are not making any
recommendations in this report. However, we will continue to assess these
expenditures and plan to issue a follow up report in late spring 2009.


12
  The tickets were purchased in advance to recognize Postal Service employees for improvements in safety,
productivity, and revenue. However, the tickets are also given to guests of the employees who may or may not be
Postal Service personnel.




                                                                              4
Imprudent Spending Using the SmartPay® Purchase Card                      FF-MA-09-002



Management’s Comments

Management agreed with our finding and non-monetary impact and stated they need to
properly manage costs. Management further stated they held discussions with Postal
Service executives regarding the need to control costs throughout the year and
emphasized the need to communicate this objective to all employees. Management
also stated that a limited number of expenditures that could be perceived as
questionable might still occur as they recognize employees for their extraordinary
contributions to the organization. See Appendix C for management’s comments in their
entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to our issues and corrective
actions should reduce the amount of imprudent spending identified in the report. We
will continue to monitor SmartPay transactions as part of our continuous auditing efforts
and will report imprudent spending if identified as part of that testing. We will report the
non-monetary impact for goodwill branding in our Semiannual Report to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John G. Wiethop, Director,
Field Financial Central, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc:    Anthony J. Vegliante
       H. Glen Walker
       Susan M. Brownell
       Vincent H. DeVito, Jr.
       Stephen J. Nickerson
       Susan A. Witt
       Katherine S. Banks




                                                5
Imprudent Spending Using the SmartPay® Purchase Card                                    FF-MA-09-002



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Since November 1991, the Postal Service has used the government-wide Commercial
Credit Card Program administered by the General Services Administration. The current
contractor is U.S. Bank, Minneapolis, MN, and the card company is VISA. The program
within the Postal Service is called the SmartPay Purchase Card Program, which Supply
Management and Finance cosponsor. The Postal Service pays no administrative fees
for the services U.S. Bank provides and earns refunds based on the aggregate volume
of Postal Service transactions. Until recently, the Purchase Card was commonly
referred to as the International Merchant Purchase Authorization Card (IMPAC). This
was a registered U.S. Bank trademark name, but the bank no longer uses it.

When eBuy or other consolidated Finance-approved payment processes are not an
option, the Purchase Card is the primary delegated local buying authority (the authority
to buy and pay for day-to-day operational needs). Generally, a single Purchase Card
transaction may not be greater than $10,000.

Cardholders, approving officials, and program coordinators must follow the purchasing
guidelines for approved expenditures set by the Postal Service in Handbook AS-709,
Credit Card Policies and Procedures for Local Buying, September 2008, and various
manuals, handbooks, management instructions, and locally issued guidance. This
guidance requires cardholders to maintain documentation, including approved
purchasing requests, sales and credit drafts and receipts, and delivery documentation.
In addition, guidance issued January 4, 2008, requires cardholders to maintain
documentation supporting the timely review of monthly statements by cardholders and
approving officials.13

OBJECTIVE, SCOPE, METHODOLOGY

The objective of our review is to report extravagant and excessive purchases we
identified during our testing of SmartPay Purchase Card transactions to management.
We did not include expenditures related to business meals or other food purchases as
examples, as the Postal Service recently issued guidance regarding these types of
purchases.14 To accomplish our objective, we reviewed judgmentally selected
SmartPay Purchase Card transactions for FY 2008. We selected the transactions
based on Standard Industrial Classification codes and the dollar amount of the
transaction. We sent letters of inquiry to cardholders requesting supporting
documentation and evaluated the supporting documentation they provided. In addition,



13
   Officer Memorandum of Policy GSA SmartPay Purchase Card Reconciliation Process Time Change,
January 4, 2008.
14
   Management Instruction FM-640-2008-1, Expenses for Internal and External Events, September 10, 2008.




                                                       6
Imprudent Spending Using the SmartPay® Purchase Card                                   FF-MA-09-002



we included data from fieldwork conducted by the OIG as part of its FY 2008 SmartPay
Purchase Card Program audits.15

We conducted this review from December 2007 through January 2009 in accordance
with the President’s Council on Integrity and Efficiency, Quality Standards for
Inspections. We discussed our observations and conclusions with management
officials on October 29, 2008, and included their comments where appropriate.
Although we relied on data obtained from the Enterprise Data Warehouse, we did not
test the validity of the data and controls over the system.

PRIOR AUDIT COVERAGE

                                           Final                       Non-
                            Report        Report          Monetary   Monetary
        Report Title        Number         Date            Impact     Impact          Report Results
IMPAC Card Purchases –    FF-AR-06-038   12/30/2005       $480,985     N/A      Cardholders did not
Chicago District                                                                maintain supporting
                                                                                documentation for
                                                                                purchases. Purchases for
                                                                                charitable events /
                                                                                sponsorships and
                                                                                memberships did not follow
                                                                                Postal Service policies.
                                                                                Further, we found evidence
                                                                                that district personnel
                                                                                divided purchases in excess
                                                                                of $10,000 into smaller
                                                                                increments to avoid
                                                                                spending limitations,
                                                                                improperly used money
                                                                                orders, and did not perform
                                                                                required reconciliation
                                                                                procedures. We also
                                                                                identified weaknesses in the
                                                                                district’s awards programs.
SmartPay Purchase Card    FT-AR-07-014   9/29/2007        $127,393   $181,908   Internal controls over
Use by Postal Service                                                           SmartPay Purchase Card
Officers                                                                        use by Postal Service
                                                                                officers were generally
                                                                                adequate, including
                                                                                authorization and
                                                                                subsequent review.
                                                                                However, the Postal Service
                                                                                did not always maintain
                                                                                adequate purchase
                                                                                documentation or use the
                                                                                Purchase Card for
                                                                                authorized purposes. In
                                                                                addition, the Postal Service
                                                                                could strengthen existing
                                                                                SmartPay Purchase Card
                                                                                policies to further enhance
                                                                                controls over the Purchase
                                                                                Card program.




15
     Project Number 08BD006FF000.




                                                      7
Imprudent Spending Using the SmartPay® Purchase Card                                        FF-MA-09-002




National Review of         CA-AR-08-002   11/8/2007       $244,626       $177,183   Our audit disclosed 25 of 42
SmartPay Purchase Card                                                              cardholders had 37
Transactions                                                                        transactions, totaling
                                                                                    $45,474, which did not have
                                                                                    an approved purchase
                                                                                    request or proper written
                                                                                    justifications. One of these
                                                                                    25 cardholders also paid
                                                                                    $1,443 for meals and
                                                                                    refreshments that did not
                                                                                    comply with Postal Service
                                                                                    policy. Sixteen of 42
                                                                                    cardholders had 35
                                                                                    transactions, totaling
                                                                                    $115,885, in which they
                                                                                    either acted in the capacity
                                                                                    of the credit card approving
                                                                                    official, had missing credit
                                                                                    card logs, or had missing or
                                                                                    unreconciled monthly bank
                                                                                    statements. In addition, four
                                                                                    cardholders improperly split
                                                                                    purchases to avoid the
                                                                                    $10,000 per transaction
                                                                                    spending limit.
Fiscal Year 2007           FF-AR-08-072   1/11/2008        $63,511         N/A      SmartPay Purchase Card
Southwest Area                                                                      cardholders had 105
SmartPay Purchase Card                                                              transactions totaling
Program                                                                             $95,589 that either were not
                                                                                    supported with
                                                                                    documentation or were for
                                                                                    unauthorized items. In
                                                                                    addition, cardholders did not
                                                                                    always enter gift cards into
                                                                                    the eAwards system.
Fiscal Year 2007           FF-AR-08-094   2/4/2008        $1.2 million     $2.6     We identified various
SmartPay Purchase Card                                                    million   internal control and
Program                                                                             compliance issues in all 17
                                                                                    judgmentally selected sites,
                                                                                    including one policy issue
                                                                                    related to monthly
                                                                                    reconciliations.
Fiscal Year 2008 Capital   FF-AR-08-270   8/22/2008           N/A          N/A      Generally, cardholders
Metro Area SmartPay                                                                 supported Capital Metro
Purchase Card Program                                                               Area SmartPay Purchase
                                                                                    Card Program purchases
                                                                                    and complied with Postal
                                                                                    Service policies and
                                                                                    procedures. However, the
                                                                                    credit card reconciliation
                                                                                    process needed
                                                                                    improvement.
Fiscal Year 2008           FF-AR-08-279   9/8/2008            N/A          N/A      We did not identify any
Southeast Area                                                                      control and compliance
SmartPay Purchase Card                                                              issues with the Southeast
Program                                                                             Area’s SmartPay Purchase
                                                                                    Card Program. Purchases
                                                                                    were made in accordance
                                                                                    with Postal Service
                                                                                    procurement policies.




                                                      8
Imprudent Spending Using the SmartPay® Purchase Card                                   FF-MA-09-002




Fiscal Year 2008 Pacific   FF-AR-08-281    9/12/08         $20,215   $3,360    Cardholders did not always:
Area SmartPay Purchase
Card Program                                                                   •    Document the business
                                                                                    necessity for holding
                                                                                    separate working
                                                                                    meetings after normal
                                                                                    business hours.
                                                                               •    Seek or receive tax
                                                                                    exemptions on
                                                                                    purchases.
                                                                               •    Enter non-cash award
                                                                                    transactions into the
                                                                                    eAwards system.

                                                                               Cardholders and approving
                                                                               officials did not follow
                                                                               monthly reconciliation
                                                                               procedures.
Fiscal Year 2008           FF-AR-08-286    9/24/08         $57,712    N/A      Cardholders did not always
Western Area SmartPay                                                          document the business
Purchase Card Program                                                          necessity for working meals
                                                                               or purchase bottled water
                                                                               from the contracted vendor.
Fiscal Year 2008 Great     FF-AR-08-287    9/26/08         $38,412   $37,808   Purchases were not always
Lakes Area SmartPay                                                            supported with
Purchase Card Program                                                          documentation, monthly
                                                                               reconciliation procedures
                                                                               were not always followed,
                                                                               and SmartPay Credit Card
                                                                               Program Cardholder
                                                                               Accountability
                                                                               Acknowledgment forms
                                                                               were not always completed.
Fiscal Year 2008 Eastern   FF-AR-09-002   10/21/2008       $26,745   $9,826    Cardholders made
Area SmartPay Purchase                                                         purchases from
Card Program                                                                   unauthorized vendors and
                                                                               did not always document the
                                                                               business necessity for
                                                                               working meals. eBuy
                                                                               authority was not properly
                                                                               delegated and purchases
                                                                               were not always supported
                                                                               by receipts. Cardholders
                                                                               and approving officials did
                                                                               not follow monthly
                                                                               reconciliation procedures.
Fiscal Year 2008           FF-AR-09-001   10/22/2008       $36,263   $13,481   Cardholders made
Northeast Area SmartPay                                                        purchases without
Purchase Card Program                                                          documenting the business
                                                                               necessity for working meals,
                                                                               and cardholders and
                                                                               approving officials did not
                                                                               follow monthly reconciliation
                                                                               procedures.
Fiscal Year 2008 New       FF-AR-09-028    11/28/08        $63,000   $34,451   Cardholders did not always
York Metro Area                                                                document the business
SmartPay Purchase Card                                                         need for working meals,
Program                                                                        follow proper contracting
                                                                               rules, and verify charges
                                                                               during reconciliation.




                                                       9
Imprudent Spending Using the SmartPay® Purchase Card   FF-MA-09-002



               APPENDIX B: POSTMASTER GENERAL MEMORANDUM
                            ON REDUCING COSTS




                                                10
Imprudent Spending Using the SmartPay® Purchase Card      FF-MA-09-002



                      APPENDIX C: MANAGEMENT’S COMMENTS




                                                11
Imprudent Spending Using the SmartPay® Purchase Card   FF-MA-09-002




                                                12
